                                                   National Railroad Passenger Corporation
                                                   Office of Inspector General
                                                   10 G Street N.E.
	                                                 Washington, DC 20002




                                CONFLICT OF INTEREST
                                  OCTOBER 30, 2013
                                  CASE # DC-13-0210

We reported to Amtrak management the results of our investigation into allegations of a
possible conflict of interest by a company Vice-President related to the award and
administration of contracts to provide training to Amtrak executives. We determined
that the Vice-President’s father had a relationship to the company that provided the
training. Our investigation disclosed that the Vice President’s position over the process
gave the appearance or perception of a conflict of interest. We did not find that the
Vice-President or his father derived any financial benefit or gain from the training
contract. However, we found that Amtrak has no corporate recusal policy in place for
instances involving conflict of interest. As a result of our report, Amtrak management
amended the Ethical Conduct and Conflict of Interest policy to include a recusal
procedure.
